U.S. Department of Labor       Inspector General
                               Washington DC 20210
NOV. 5, 1996

MEMORANDUM FOR:      J. DAVITT McATEER
                     Assistant Secretary for
                        Mine Safety and Health

FROM:                CHARLES C. MASTEN
                     Inspector General

SUBJECT:             Review of MSHA Contract with the United Mine
                     Workers of America and the Bituminous Coal
                     Operators Association
                     Report No. 08-OEI-97-MSHA

This memorandum report presents the results of our review of a
proposed contract between the Mine Safety and Health
Administration (MSHA), the United Mine Workers of America (UMWA)
and the Bituminous Coal Operators Association (BCOA). We
identified serious concerns regarding the propriety of the
proposed contract as well as policy issues warranting further
consideration which led us to recommend that the contract not be
authorized. Additional findings pertained to the relevance to
MSHA’s mission of some training subjects, the accuracy of
procurement documents, the suitability of contract payment
provisions and the waiver of MSHA Academy fees. The Assistant
Secretary for Mine Safety and Health responded to our draft
report on October 30, 1996, advising that MSHA will not execute
the proposed contract and will reconsider the waiver of MSHA
Academy fees for the training proposed to be conducted under the
contract. A copy of the Assistant Secretary’s response is
included as an attachment to this memorandum.


I.      Background

The Assistant Secretary for Mine Safety and Health requested
that the Office of Inspector General review the concerns raised
in correspondence, dated August 2, 1996, from Congressman
Schaefer. This report presents the results of the first of a
series of reviews planned to address the issues forwarded by the
Congressman. In the case of this contract, the complaint focused
on the propriety of a sole source procurement by MSHA with the
United Mine Workers of America. The purpose of our review was to
evaluate MSHA’s compliance with applicable statutory, regulatory
and procedural requirements and to identify any program
efficiency or effectiveness issues raised by the proposed
procurement action. We designed our review to assist MSHA
incompleting any corrective actions necessary prior to issuing
the contract.

The contract was prepared in response to an unsolicited
proposal, dated May 5, 1994, from the UMWA requesting a total of
$344,274 to fund a course of health and safety training for
members of the Mine Health and Safety Committee established by
the Joint Industry Training Committee provided for in the
National Bituminous Coal Wage Agreement of 1993 and the 1993
Wage Agreements with members of the Independent Bituminous Coal
Bargaining Alliance. The contract funds were intended for two
purposes:

      o    $258,314 was to be used to pay all travel related
      costs, including mileage, lodging and food, for the 700
      Mine Health and Safety Committeemen and 195 company
      representatives expected to attend the training; and

      o    $85,960 was requested for equipment required for the
      training.

Our research and discussions with officials of MSHA, the UMWA
and the BCOA indicated that the training program for the Mine
Safety and Health Committee has been operated for at least the
past 20 years with various sources of funding. Prior to 1979,
the Department of the Interior and, possibly, the Department of
Labor (DOL) had provided assistance with the travel costs of
some participants in this course. More recently, BCOA and
independent coal operators paid a portion of the travel related
costs of the training and the difference was funded through a
settlement resulting from a mining disaster in Boone County,
West Virginia. According to officials of the UMWA, the Boone
County settlement fund has been exhausted.


II.   Issues and Concerns

      1.   Propriety of the Funding

      The proposed funding of the Mine Health and Safety
      Committee training program by MSHA raises serious propriety
      issues in view of the contractual obligations of the UMWA
      and the employers to establish and fund this training
      course under the provisions of their collective bargaining
      agreements. Additional policy issues warranting
consideration include the nature of the organizations to be
offered support for travel expenses, vested business
interests or incentives for the parties to assume the costs
and creating the potential appearance of a favored
relationship with specific groups.

Most serious among our concerns about the propriety of the
funding is the existence of a contractual obligation under
the collective bargaining agreements for the UNWA and the
employers to provide this training program. Both the
National Bituminous Coal Wage Agreement of 1993 and a
representative 1993 UMWA Wage Agreement with a member of
the Independent Bituminous Coal Bargaining Alliance (IBCBA)
state, “The Union and the Employer shall jointly establish
and fund a course of health and safety training f or
members of the Mine Health and Safety Committee, which is
designed to improve health and safety knowledge and
skills.”

Closely related to the issue of the coal operators’ and
Union’s contractual obligation is the question of a valid
need for MSHA’s financial assistance which may be the
result of a lack of planning by some of the collective
bargaining parties to fulfill their contractual
responsibilities. For example, both wage agreements cited
above provide for several types of training programs and,
in most instances, establish specific procedures for
funding the training. With respect to the training program
for which MSHA support has been requested, neither Wage
Agreement establishes a dedicated fund or discusses other
specific procedures for financing the costs. Officials of
the BCOA advised that their members were prepared to fund
the travel costs for their Committeemen and company
representatives to attend the training, as they have done
in the past. The BCOA officials also noted that, since the
independent coal operators and the UMWA share the
contractual responsibility for the program, they would
consider it inappropriate for MSHA to fund some of the
parties while excluding the others.

Our review did not identify either statutory impediments or
existing DOL policies which would prohibit MSHA from
entering into the proposed contract. While a 1979 opinion
by the Comptroller General specifically ruled against
MSHA’s funding the travel of non-Government personnel for
training absent specific legislative authority because of
31 USC 1345, OIG counsel and SOL have advised that the 1992
appropriations provision allows the use of salaries and
expenses. funds for attendance at meetings and permanently
exempts DOL from the 31 USC 1345 statutory prohibition.
However, neither the Department nor MSHA had developed
specific policies or procedures to serve as guidance for
those circumstances under which the agencies would or would
not provide funding for the travel of non-Government
personnel.

In addition to pre-existing contractual or other
obligations, issues which warrant careful consideration in
the development of DOL or MSHA policies for funding the
travel of non-Government personnel include: the nature of
the groups to be offered such assistance (e.g., private
for-profit companies, non-profit organizations, etc.);
benefits and/or incentives to the parties to participate in
the function; and creating the potential appearance of a
favored relationship with specific groups. In the case of
the proposed training contract, the nature of the groups is
self-evident, while the question of past and possible
future precedents for MSHA and DOL merit further
exploration. With respect to the economic benefits to the
coal operators to sponsor this training program, the
proposal submitted to MSHA states:

     “A mining accident increases the cost of business
     through medical care costs, reduced production,
     insurance costs and benefits to the victim’s family. A
     single injury or illness can result in hundreds of
     thousands of dollars in medical, compensation and
     other costs. According to statistics compiled by the
     U.S. Bureau of Mines, a single death results in a cost
     of $1,158,000.”

The concerns discussed in this section regarding the
propriety of the funding in conjunction with the additional
policy issues, in our opinion, weigh strongly against
authorizing the proposed contract for this training
program. However, should MSHA proceed with the contract,
the items in the following sections require attention.

2.   Curriculum and MSHA Mission

Our review of the curriculum for the training program
indicated that some planned topics are not directly related
to technical safety and health issues. Since appropriation
law permits Federal agencies to expend funds only for
purposes which are authorized by their legislation, we
consider questionable the proposed expenditure of $45,853
(see Schedule 1) in travel related costs for. the sessions
discussed below.

Approximately one and one-half days of the training are
devoted to training not directly applicable to MSHA’s
mission. Specifically, a full day of training is scheduled
for communications and team building which are referenced
in the proposal to the Labor Management Positive Change
Program (LMPCP). The LMPCP is discussed in the Wage
Agreements of 1993 and a fund for this program is
established through employer contributions of three cents
per hour worked. In addition, approximately one-half day is
devoted to training on the Union’s views of the role of the
Safety and Health Committee and management’s views of the
committee’s role.

MSHA officials concurred with our position on the LMPCP
topics, during our briefing on September 26, 1996, but
advised that they considered the curriculum on the
Committee’s role to be germane to MSHA’s mission. We
requested written comments in the event MSHA reaches a
decision to fund the questioned subjects.

3.   Procurement Issues

Several issues with respect to the contract were identified
and brought to the attention of MSHA officials early in the
course of our review. During our meeting on September 26,
1996, MSHA officials advised that all of these items have
been corrected in a revised version of the contract. Since
we have not had the opportunity to review the revised
contract and confirm the corrections, we are summarizing
the issues in this memorandum.

     o    Contract Language The contract language (e.g.,
     the Description of Services, the Scope and the
     Statement of Work) did not accurately describe the
     purpose of the contract and the application of the
     funds. In particular, there was no mention of the use
     of the funds to pay for the travel related costs of
     the training participants or any explanation
     indicating that travel costs were the basis of the
     price per class shown in the contract. In addition,
     the contract we reviewed omitted any reference to the
     training of the 195 company representatives mentioned
     in the proposal, but the contract costs were not
     adjusted accordingly.

     o    Fixed Price Payment Basis. Both the UMWA’s
     contract proposal and the original fixed-price
     contract which we reviewed computed $258,314 of travel
     expenses based on exact costs for lodging, meals, and
     mileage of the trainees. However, both the UMWA’s
     proposal and MSHA’s contract were based only on the
     estimated number of trainees per class. It is critical
     that the payment terms provide the flexibility to
     adjust travel payments to the actual number of
     trainees, rather than the estimated training
     attendance.

     o    Disposition of Equipment. The contract was silent
     regarding which party will take possession of the
     equipment at the completion of the training. The
     interest of the Government dictates that the final
     disposition of the equipment be clearly specified in
     the terms of the contract.

4.   Waiver of MSHA Academy Costs

MSHA’s plans to waive fees valued at $82,236 (see Schedule
2) for the use of the MSHA Academy will require
reconsideration in the event the contract is not executed
or funding is not authorized for all proposed
organizations. The waiver of room and board costs is
appropriate to avoid the administrative burdens of paying
the trainees for the full travel costs and requiring them
to reimburse MSHA for the Academy fees, if MSHA contracts
for the travel expenses of all individuals requested in the
proposal. The participants in the Mine Health and Safety
course do not, however, meet any of the fee exemption
criteria established in MSHA’s regulations which state,
“The Academy will charge room and board to all persons
staying at the Academy, except MSHA personnel., other
personnel performing a direct service for MSHA, and persons
attending the Academy under a program supported through an
MSHA State grant.” Thus, if the contract is not approved or
the travel expenditures of any group are eliminated, room
and board costs at the Academy should be charged in
accordance with the regulations.

At the September 26, 1996 meeting, a decision on the waiver
of MSHA Academy fees was deferred pending the resolution of
     the other matters addressed in this memorandum.


III. Recommendations

In view of the significance of our concerns regarding the
propriety of this proposed contract in conjunction with the
related policy issues, we recommend that the Assistant Secretary
f or Mine Safety and Health not authorize the funding for the
training program under consideration. However, if the Assistant
Secretary decides to proceed with the contract, we recommend
that, at a minimum:

     1.   The funding level be reduced by the $163,379 in travel
          expenses estimated for the BCOA Committeemen and
          company representatives.

     2.   The funding levels be further reduced by the estimated
          cost of food and lodging for the training not directly
          related to MSHA’s mission.

     3.   A policy statement be developed, in coordination with
          Departmental management, to address circumstances
          under which MSHA will fund the travel of non-
          Government personnel.

     4.   The contract be re-submitted to the Procurement Review
          Board with a complete description of the proposed
          application of the funds and an expanded background
          section, including the Wage Agreement provision
          concerning the joint establishment and funding of the
          training by the Union and the Employer.

     5.   The payment basis be revised to ensure adequate
          provisions for the adjustment of travel costs in
          accordance with actual attendance.

     6.   The contract language be revised to more accurately
          describe the purpose of the contract and the
          application of the funds and to address the
          disposition of the equipment at the completion of the
          training program.

     7.   Room and board costs at the Academy be charged for any
          participants whose travel expenses will not be funded
          under the contract.
The Assistant Secretary for Mine Safety and Health responded to
our draft report on October 30, 1996, advising that MSHA will
not execute the proposed contract and will reconsider the waiver
of MSHA Academy fees for the training proposed to be conducted
under the contract. (A copy of MSHA’s response is included as an
attachment to this report.) On the basis of this response, we
have resolved and closed Recommendations 1 through 6, above.
Please provide us your decision with respect to the waiver of
the Academy fees within 60 days to enable us to resolve the
remaining recommendation.

We appreciate the positive actions you have taken in addressing
our recommendations and the cooperation we have received from
you and your staff during this review. Please do not hesitate to
address any questions you have concerning this report to
Veronica Campbell at (202) 219-8446, ext. 143.

Attachments
TRAVEL EXPENSES FOR JITP TRAINING

                                           COMPANY              OUTSIDE    COST OF INDIRECT
BCOA            CLASS#     COMMITTEEMEN      REPS    ACADEMY   LOCATION        TRAINING

                       1              15         5                 11865               2500
                       2              11         5       336
                       3              14         5       285
                       4              17         5                 13230               2750
                       5              36        10                 26790               5750
                       6              15         5                 12100               2500
                       7              11         5                  9040               2000
                       8              15         5                 12100               2500
                       9              45         5      1500
                      10              35         5                 24000               5000
                      11              25         5                 18200               3750
                      12              39        10                 30690               6125
                      13              18         5       345
                      14              55        20      1575
                      15              43        20      1323
               SUB-TOTAL             394       115      5364      158015              32875

INDEPENDENTS
                      16              32        10      5040
                      17              21         5                 13618               2860
                      18              41         5                 15290               1035
                      19              32         5                 12455                833
                      20              16         5                 13988               2825
                      21              35        10                 28250               5625
                      22              47        15      2604
                      23              50        15      1170
                      24              32        10      2520
               SUB-TOTAL             306        80     11334       83601              12978

                 TOTALS    =============   =======   =======   =========   ================
                                     700       195   $16,698    $241,616            $45,853


SCHEDULE 1
MSHA FEE WAIVERS FOR JITP TRAINING

BCOA              CLASS#     COMMITTEEMEN    COMPANY REPS     TOTAL      ROOM AND BOARD

                         2             11                5         16         $2,879.15
                         3             14                5         19         $3,418.99
                         9             45                5         50         $8,997.35
                        13             18                5         23         $4,138.78
                        14             55               20         75        $13,496.03
                        15             43               20         63        $11,336.66
                 SUB-TOTAL            186               60        246           $44,267

INDEPENDENTS
                        16             32               10         42         $7,557.77
                        22             47               15         62        $11,156.71
                        23             50               15         65        %11,696.56
                        24             32               10         42         $7,557.77
                 SUB-TOTAL            161               50        211           $37,969

                    TOTALS   =============   =============   =========   ==============
                                       347             110         457          $82,236


SCHEDULE 2
U.S. Department of Labor   Mine Safety and Health
                           Administration
                           4015 Wilson Blvd.
                           Arlington, Virginia 22203-1984
OCT. 30, 1996

MEMORANDUM FOR:     CHARLES MASTEN
                    Inspector General

FROM:               J. DAVITT McATEER
                    Assistant Secretary for
                    Mine Safety and Health

SUBJECT:            Review of MSHA Contract with the United Mine
                    Workers of America and the Bituminous Coal
                    Operators Association
                    Report No. 08-OEI-97-MSHA

This is to advise you that the Mine Safety and Health
Administration (MSHA) will not execute the contract for the
training proposed by the United Mine Workers of America and the
Bituminous Coal Operators’ Association. The training
contemplated by the proposal was designed to enhance safe and
healthful working conditions for miners. However, as found in
your report, funding cannot be made available in view of the
existing contractual arrangements between the parties. In
addition, as recommended in the report, we will reconsider the
waiver of MSHA Academy fees for the training proposed to be
conducted under the contract.

Your prompt attention to this matter and the thorough work of
your staff is appreciated.
